<html>
<title> - S. 2537, H.R. 3833, DOT KIDS IMPLEMENTATION AND EFFICIENCY ACT OF 2002</title>
<body><pre>[Senate Hearing 107-1145]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1145

 S. 2537, H.R. 3833, DOT KIDS IMPLEMENTATION AND EFFICIENCY ACT OF 2002

=======================================================================

                                HEARING

                               before the

             SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, AND SPACE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 12, 2002

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


                    U.S. GOVERNMENT PRINTING OFFICE
93-497                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
      Jeanne Bumpus, Republican Staff Director and General Counsel
                                 ------                                

             Subcommittee on Science, Technology, and Space

                      RON WYDEN, Oregon, Chairman
JOHN D. ROCKEFELLER IV, West         GEORGE ALLEN, Virginia
    Virginia                         TED STEVENS, Alaska
JOHN F. KERRY, Massachusetts         CONRAD BURNS, Montana
BYRON L. DORGAN, North Dakota        TRENT LOTT, Mississippi
MAX CLELAND, Georgia                 KAY BAILEY HUTCHISON, Texas
JOHN EDWARDS, North Carolina         SAM BROWNBACK, Kansas
JEAN CARNAHAN, Missouri              PETER G. FITZGERALD, Illinois
BILL NELSON, Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held September 12, 2002..................................     1
Statement of Senator Dorgan......................................     1
    Prepared statement...........................................     2
Statement of Senator Ensign......................................     3
    Prepared statement...........................................     4

                               Witnesses

Brown, Hon. Ann, Chairman, Safer America for Everyone (SAFE).....    13
    Prepared statement...........................................    15
Casey, James A., Director of Policy and Business Development, 
  NeuStar, Inc...................................................    18
    Prepared statement...........................................    19
Rodriguez, Ruben, Director, Exploited Child Unit, National Center 
  for Missing & Exploited Children...............................    11
    Prepared statement...........................................    12
Shimkus, Hon. John, U.S. Representative from Illinois............     6
    Prepared statement...........................................     8
Whitley, Jan, Mother, Silver Spring, Maryland....................    32
    Prepared statement...........................................    33

 
                      S. 2537, H.R. 3833, DOT KIDS
               IMPLEMENTATION AND EFFICIENCY ACT OF 2002

                              ----------                              


                      THURSDAY, SEPTEMBER 12, 2002

                               U.S. Senate,
    Subcommittee on Science, Technology, and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:40 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Byron L. 
Dorgan, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. I will call this hearing to order. On 
behalf of myself and Senator Ensign, we welcome those of you 
who are at the hearing. We welcome Congressman Shimkus. Let me 
make a very brief statement, then call on my colleague, Senator 
Ensign, then we will hear from you, Congressman Shimkus.
    As anyone who has surfed the Net knows, the development of 
the Internet is a wonderful opportunity for virtually all 
citizens to research and access new information. It is also, 
for children, something that we need to be very careful of, 
because the Internet not only has some wonderful content, it 
also has some rather disgusting content, and all of us are 
concerned about protecting children.
    I have two children in school, and they do a lot of 
research on the Internet. I, like most parents, want to be 
certain that we are able to protect them by not allowing them 
to go to certain areas of the Internet. And there are some 
technical devices by which you do that. There's really no 
substitute for parental supervision, but there are other things 
we can do, and that is the purpose of this hearing today.
    Just 2 weeks ago, a 7th grade girl at Erik Ramstad Middle 
School in North Dakota reported she had been solicited for a 
sexual encounter online. And in a school assembly the same day, 
30 other students revealed they had been threatened online. The 
National Center for Missing and Exploited Children has charted 
5,700 cases of online enticement in the last 4 years, and those 
are only the cases that were intercepted by parents.
    While there's not yet any way to compile federal, state, 
and local cases involving sex, children, and the Internet, 
experts estimate there are 4,000 to 5,000 instances each year. 
This is a frightening situation.
    Computers, as I indicated, are wonderful. The Internet is 
wonderful. But the computer can become an open door for 
predators into the homes of children. It's necessary for us to 
be concerned, as parents, and to try to find ways to create 
safe havens online for children to use the Internet.
    In addition to adult content and violence that children 
inadvertently stumble on as they surf the Net, the most recent 
study available--``Online Victimization, A Report on Our 
Nation's Youth,'' found that almost 1 out of 5 young people who 
use the Internet regularly were exposed to unwanted sexual 
solicitations or approaches, and 25 percent had been exposed to 
unwanted online pornography in the previous year.
    Today, we have before us a piece of legislation called the 
Dot Kids Implementation and Efficiency Act that will try to 
help this situation by creating a safe haven on the Internet 
for children. I introduced it here in the Senate with my 
colleague, Senator Ensign, after it was successfully shepherded 
through the House of Representatives by our first witness, 
Congressman Shimkus, and my friend, Congressman Ed Markey, who 
was not able to be here today. But Congressman Shimkus and 
Congressman Markey have moved this through the House of 
Representatives. I'm hoping that Senator Ensign and I will be 
able to do the same in the concluding weeks here in the United 
States Senate.
    It's a very simple concept to create a space on the Web 
that can be a cyber-sanctuary for kids, a place where parents 
and kids can be confident that every site on the Dot Kids 
domain contains material that is suitable for kids under the 
age of 13. I have a description of the way the bill will work, 
but I'll leave that to Congressman Shimkus to describe. I'll 
put my statement in the record.
    [The prepared statement of Senator Dorgan follows:]

              Prepared statement of Hon. Byron L. Dorgan, 
                     U.S. Senator from North Dakota

    Good afternoon, the hearing will come to order.
    As anyone who has surfed the net knows, the development of the 
Internet has been a mixed blessing. On the one hand the Internet has 
brought enormous benefits to adults and children alike as it appears to 
be revolutionizing the way we read the news, research school papers, 
shop, do business, and communicate with each other.
    But, on the other hand, as anyone with children knows, just as the 
Internet portends to offer great possibilities, it also poses great 
risks to our children as there is no good way to protect them from the 
mountains of material that is inappropriate for their eyes.
    Just 2 weeks ago a 7th grade girl at Erik Ramstad Middle School in 
North Dakota reported she had been solicited for a sexual encounter 
online. In a school assembly the same day 30 other students revealed 
that they have been threatened online.
    The National Center for Missing and Exploited Kids has charted 
5,700 reported cases of online enticement in the past 4 years, and 
those are only cases that were intercepted by parents. And while there 
is not yet any way to compile federal, state, and local cases involving 
sex, children, and the Internet, but experts estimate that there are 
4,000-5,000 each year. This is a frightening situation. Computers have 
become an open door for predators into the homes of children. It is 
necessary to create a safe haven online for children to surf.
    In addition to adult content and violence that kids inadvertently 
stumble on as they surf the net. The most recent study available 
(``Online Victimization: A Report on the Nation's Youth'') found that 
``almost 1 out of 5 young people who use the Internet regularly were 
exposed to unwanted sexual solicitations or approaches'' and ``25 
percent had been exposed to unwanted online pornography'' in the 
previous year.
    Today we have before us a bill called the ``Dot Kids Implementation 
and Efficiency Act'' that will try to help this situation be creating a 
safe haven on the Internet for kids.
    Introduced here in the Senate by myself and Senator Ensign, after 
it was successfully shepherded through the House by our first witness, 
Congressman Shimkus and my good friend Rep. Ed Markey, the idea behind 
the ``dot-kids'' domain is very simple--to create a space on the web 
that can be a cyber-sanctuary for kids. A place where parents and kids 
can be confident that every site on the ``dot-kids'' domain contains 
materials that is suitable for kids under the age of 13.
    The way the bill would work is it would create a sub-domain under 
our Nation's country code (``dot.us'') called ``kids.dot.us'' which 
will only host content that is age appropriate for children. A number 
of safeguards were also put in this bill. ``Dot-kids-dot-us'' will be 
monitored for content and safety; and should objectionable material 
appear, it will be taken down immediately.
    One of those safeguards is a restriction on peer-to-peer 
communication unless the entity hosting the site certifies that they 
will be done safely. And further, hyperlinks, which would take children 
out of the safe ``dot-kids'' domain are expressly prohibited to help 
insure that parents can be confident that when their children visit 
sites in ``dot-kids'' will stay within the dot-kids domain.
    Last October the Department of Commerce awarded the contract to 
handle the management and commercialization of the ``dot.us'' domain. 
And while this bill is careful to not change the terms of the existing 
contract it would condition the next contract on the creation of the 
``dot.kids.dot.us'' domain.
    So, under this bill, participation in ``dot.kids'' would be 
completely voluntary. Not only will whomever accepts the next contract 
to be the registrar for ``dot.us'' know that they will be getting into, 
parents would choose to use it, and website operators would choose to 
be located within it.
    The only requirement will be that site operators on the 
``.kids.us'' domain agree to keep their sites full of material that is 
suitable for minors.
    Personally, I think the idea of using our country's Top-Level-
Domain to create a cyber-sanctuary for children makes a great deal of 
sense. But, I recognize that others might have a different view, and 
look forward to having a good discussion about the legislation that is 
before us.
    With that I would like to turn to my colleague from Nevada, Mr. 
Ensign for his opening statement.

    Senator Dorgan. Let me again thank my colleague, Senator 
Ensign, from the State of Nevada. I'm really pleased to work 
with him and hope that the two of us can do in the United 
States Senate what you, Congressman Shimkus, along with 
Congressman Markey, did in the House. If we can get a bill to 
the President that he will sign, we will have done something 
good for America's children.
    Let me call on my colleague, Senator Ensign, for any 
comments.

                STATEMENT OF HON. JOHN ENSIGN, 
                    U.S. SENATOR FROM NEVADA

    Senator Ensign. Thank you, Mr. Chairman. I appreciate your 
leadership on this issue and join you in strongly supporting 
this bill. And thank you, Congressman Shimkus and Congressman 
Markey, for getting it through the House. The leadership and 
the passion with which you have shepherded that bill through 
the House and brought to this issue, I think, is the reason 
that this issue has such a good chance of passing.
    I would ask unanimous consent that my full statement be 
made a part of the record and then just summarize briefly.
    Senator Dorgan. Without objection.
    [The prepared statement of Senator Ensign follows:]

      Prepared Statement of John Ensign, U.S. Senator from Nevada

    Mr. Chairman, I am pleased to support H.R. 3833, the Dot Kids bill 
of 2002. Senator Dorgan and I introduced this bipartisan bill earlier 
this year to protect children on the Internet, and I am gratified that 
the Senate will act on it soon.
    It is estimated today that over 140 million Americans use the 
Internet, many of them children. Most schools are equipped with 
computers, where our children learn to navigate the Internet; in most 
cases, children do so with better skill than parents. No longer do our 
children have to go to the library and sift through voluminous card 
catalogues for their research projects. No longer do our children need 
to be in school to communicate with their teachers and fellow 
classmates--they can do it from home by using e-mail and instant 
messaging. Families simply need a computer with an Internet connection 
to provide children with access to a greater breadth of information 
than the Library of Congress. The educational opportunities are 
limitless.
    However, the Internet can also be used as a tool for evil. Many 
young children have tragically fallen victim to on-line predators. They 
have been stalked by pedophiles masquerading as other children. Many 
more young children on the Internet are routinely exposed to graphic 
violence, drugs and inappropriate sexual content despite parents' 
efforts at restricting such content.
    Congress first acted to protect children on the Internet in 1996 
with passage of the Communications Decency Act (CDA). This legislation 
criminalized engaging in indecent or patently offensive speech on 
computer networks if the speech could be viewed by anyone 18 years of 
age or younger, but it did not survive constitutional challenges. The 
U.S. Supreme Court held in Reno v. American Civil Liberties Union that 
the CDA violated First Amendment free-speech protections. Congress 
subsequently responded in 1998 with passage of the Children's Online 
Protection Act (COPA), legislation that prohibited communication of 
material that is harmful to minors on for-profit websites. The U.S. 
Supreme Court, however, in American Civil Liberties Union v. Reno, 
upheld an injunction by the U.S. Court of Appeals for the Third Circuit 
on constitutional grounds and remanded the case for further review.
    Another attempt was made to strike the careful balance between the 
First Amendment and protecting children on the Internet with passage of 
the Children's Internet Protection Act of 2000 (CIPA). This legislation 
required schools and libraries that receive federal funding to install 
filtering software to block from minors Internet content that contains 
child pornography, or other obscene and indecent material that is 
harmful to minors. Moreover, this legislation required federally funded 
libraries to block adults from accessing websites containing obscene 
material or child pornography. However, the U.S. District Court of the 
Eastern District of Pennsylvania unanimously held in American Library 
Association v. United States that CIPA was unconstitutional. This case 
will now go before the U.S. Supreme Court for review.
    The bill before us represents the most recent effort by Congress to 
craft legislation that can both protect children on the internet and 
withstand constitutional scrutiny.
    The Dot Kids bill establishes a children's section of the Internet, 
much like a children's section of the library, where children will be 
safe from pedophiles, pornography, and violence. We worked to craft the 
Dot Kids bill to withstand First Amendment challenges by not imposing a 
burden on free speech to adults; the use of the Dot Kids subdomain is 
completely voluntary. As such, it recognizes and protects the rights of 
those who wish to view content not suitable for minors outside of the 
Dot Kids subdomain. Content within the Dot Kids subdomain must be 
suitable for children under 13 years of age. Dot Kids also protects 
children from accessing websites outside the Dot Kids subdomain or 
engaging in uncertified interactive services. This is a major victory 
for children and families. Chat rooms and instant messaging is a key 
component in allowing pedophiles to stalk children over the Internet. 
Liability protection was also provided for the domain administrator by 
utilizing the ``Good Samaritan'' provision in the Communications Act of 
1934. This provision will ensure that the Dot Kids administrator will 
not be held liable for actions voluntarily taken in good faith to 
restrict access to, or availability of, obscene harassing, violent or 
other objectionable material.
    I am pleased that the Family Research Council, the National Center 
for Mission and Exploited Children, the American Center for Law and 
Justice, a Safer America for Everyone (SAFE), and the National Law 
Center for Children and Families have joined our effort in supporting 
this proposal.
    The U.S. House of Representatives previously passed this measure by 
an overwhelming majority vote with the hard work of many dedicated 
Members of Congress including Congressman Shimkus, Congressman Tauzin, 
Congressman Upton, Congressman Markey and Congressman Dingell.

    Senator Ensign. This bill, as Senator Dorgan has laid out, 
attempts to address some serious problems out there. While the 
Internet has such potential for good, it also has such 
potential for evil, depending on how it's used. And in a free 
society, it's very difficult to have an Internet not be abused, 
and not be used for many purposes of evil.
    What we are attempting to do, within the context of a free 
society, is to balance adults making their own free choices, 
protecting the First Amendment, saying that we do not want to 
do anything to impede what they can view and where they can go 
on the Internet, but also understanding that a parent cannot 
sit there the entire time that their children are on the 
Internet. It is impossible to do that. Anybody that has 
children knows you can't watch your children 24 hours a day. 
It's difficult enough to regulate what they have coming on 
television. At least on television you don't have to buy 
certain channels if you don't want them to be able to watch 
certain things. There are many ways that at least you don't 
purchase certain things. The Internet is very, very difficult 
to block, even with the filters. Most kids can get around the 
filters.
    While this bill does not stop the ability for kids to go to 
other places, at least if the parents put on their computers 
that they know they can walk in periodically and check that 
these kids are in a domain where they cannot just quickly go to 
other places through connections, and that parents can have 
somewhat of a feeling that their children are in a safe place.
    I will relate a personal experience that we had. We have a 
10 year old who is typical, I think, of most 10 year olds, very 
computer savvy. I think most kids know more about computers 
than their parents do. And I have a 4-year-old, actually, that 
is fairly computer savvy. But my 10-year-old, he mentioned to 
us that he wanted to check his e-mail. We were over at some 
people's house, and they had a computer, and he said, ``I want 
to check my e-mail.'' Well, he goes to pull up his e-mail on 
this, and, where he went in, it was all of this pornography 
that had just come up on the screen. And, of course, as two 
concerned parents, we immediately shut down his ability to be 
able to go and do his e-mail, chat rooms, or anything like 
that.
    So we, as parents who are not computer experts, who are 
fairly computer ignorant and illiterate, having a place where 
our children can go, I think, is very important for us, as well 
as for many other parents across the country. And that really 
is the purpose for this bill, being able to say, ``Kids, if you 
want to go on the Internet and you want to do a chat room, 
here's a safe place for you to go.''
    And, I think that this thing will be widely used. I think 
that the predictions that this thing won't be used are closely 
miscalculated. Hollywood said, for years, family movies 
wouldn't sell. The biggest selling movies today are family 
movies. And I believe that Dot Kids is going to be a huge, huge 
success and that parents like myself and others will make sure 
that their kids go there. And where they are, I guarantee the 
market will flourish in this particular domain.
    Thank you, Mr. Chairman.
    Senator Dorgan. Senator Ensign, thank you very much.
    Congressman Shimkus, welcome. Why don't you proceed?

                STATEMENT OF HON. JOHN SHIMKUS, 
               U.S. REPRESENTATIVE FROM ILLINOIS

    Mr. Shimkus. Thank you, Chairman Dorgan and Members of the 
Committee. It is my first time testifying on any piece of 
legislation by myself over on your side of the Hill, and I will 
tell you it really is an honor to be here, and it's an honor to 
be here testifying on this bill, because I think it--I worked 
real hard with my friend, Ed Markey, and Freddie Upton, who 
would have liked to have been here, the Subcommittee Chairman, 
and we think we have--it is a changed bill, and we worked hard 
through the process, and I know they would like to have been 
here if they could. And I want to thank you and Senator Ensign 
as the Senate sponsors of this bill, as well as, I mentioned 
Congressman Ed Markey and Telecom Subcommittee Chairman, Fred 
Upton, for their tireless efforts and leadership on this 
project.
    I will more thoroughly explain this legislation, although, 
Senator Dorgan, you were doing a pretty good job. I was just 
hoping you would continue on in your explanation. I kind of 
liked what I was hearing.
    The World Wide Web is a mixed blessing. On one hand, it 
holds a wealth of information and is quickly becoming an 
essential educational tool. On the other hand, it has a dark 
underside that is capable of harming our children. I, too, have 
small children, a 9-year-old, 7-year-old, and 3-year-old. 
Pornography and violence are just a few keystrokes away, and 
children can easily expose themselves to serious physical and 
financial risk, all in the comfort of their own living rooms. 
Dangerous prescription drugs and online gambling sites can be 
accessed at the click of a hyperlink, and personal information 
can easily be given to the wrong people. Most disturbing are 
the all-too-frequent stories we read about children abducted 
and harmed by bad actors who lured them through Internet chat 
rooms.
    Unfortunately, little can be done to clean up the seedy 
aspects of the Web. While I praise the Department of Justice 
for increased prosecution of online child pornographers, law 
enforcement still remains ill equipped to police illicit 
activity on the Internet. The FTC and FBI are buried in cases 
of online fraud and identity theft.
    Meanwhile, the Supreme Court recently ruled that virtual 
child pornography is protected speech under the First 
Amendment. Add to this the borderless nature of the Internet, 
we can pass all of the Internet laws we want, but they cannot 
be enforced on sites that are located outside of the United 
States. When it comes to Internet safety, nothing can replace 
parental supervision, yet parents are desperate for more tools 
to help keep their children safe on this new electronic medium. 
That is why my colleagues and I have taken a positive approach 
to the problem by introducing the Dot Kids Implementation and 
Efficiency Act. This bill has been endorsed by the National 
Center for Missing and Exploited Children, the National Law 
Center for Children and Families, and A Safer America for 
Everyone, as well as by the Family Research Council. And I know 
you have some of these groups testifying after me.
    Just like a children's section of the library, the Dot Kids 
act establishes a child-friendly secondary domain under the Dot 
U.S. country code, and that is intended for children 10 and 
under. Therefore, all sites on this subdomain would have the 
suffix ``kids.us'' instead of .com or .org. The U.S. Department 
of Commerce, National Telecommunications Information 
Administration, NTIA, would oversee the implementation of 
kids.us.
    The bill sets out the content goals--goal posts of ``not 
harmful to minors'' and ``suitable for minors.'' However, the 
specific written content standards would be established by the 
private sector under the direction of the registry, which is 
NeuStar, which is currently administering our Nation's country 
code.
    Placing this child-friendly site within the .us country 
code is a brilliant strategy that avoids the traditional 
pitfalls. First, it does not affect anyone's right to free 
speech. Use of the domain is strictly voluntary. Sites can 
choose to locate there, and parents can choose to utilize it 
alone or in conjunction with other safety technologies. While 
kids.us will have only content that is child-friendly, all 
types of speech can be placed anywhere else on the Internet--on 
.com, .org, and even on the rest of the .us space.
    Second, the subdomain will be as safe as it can possibly 
be. In addition to application of the Child Online Privacy 
Protection Act, COPPA, standards, a number of additional 
safeguards were put into this bill. Kids.us will be effectively 
monitored. Should objectionable material appear, it will be 
taken down immediately. The bill bans hyperlinks that would 
take children outside of the Dot Kids kids.us space and into an 
unsecured area. Similarly, the use of chat rooms and instant 
messaging services are restricted unless the registry certifies 
that they will be done without putting children at risk. I am 
told that a number of technologies are being developed that 
will enable these interactive services to be done safely.
    Moreover, on the remote chance that kids.us degenerates 
into a place with harmful material, the bill calls for the 
Department of Commerce to pull the plug on the space. Third, 
knowing that this space could be a target for inappropriate 
material, the Dot Kids act provides the kids.us registry--
registrars and third-party contractors liability protection 
that Internet service providers currently enjoy. The bill 
extends to these entities the protection of the Good Samaritan 
clause in Section 230(c) of the Communications Act. This would 
prevent, for example, a pornographer from suing the registry if 
he or she wanted to post smut on kids.us and was told no. We 
feel good about giving this level of protection to NeuStar, 
because Section 230(c) has survived numerous court challenges.
    Finally, the kids.us domain will come at no additional 
burden to American taxpayers. I would like to emphasize a 
little known fact about our taxpayer-funded country code. The 
Department of Commerce gave away the administration of our 
Nation's resource in cyberspace, the .us country code, for 
free. This means that NeuStar is profiting from all of those 
who register sites on .us without paying one cent to the 
taxpayers for that privilege. The Dot Kids Act simply requires 
a kids.us subdomain to be added to our Nation's country code. 
The legislation still allows NeuStar to profit from the sale of 
every single one of the kids.us registrations and even goes 
further to allow NeuStar to get out of administering kids.us if 
it causes them financial hardship.
    We have worked long and hard with NeuStar to accommodate 
them with this bill. To be honest with the Committee, I've 
never seen a sweeter deal than the one NeuStar has received. 
This country code is an incredibly valuable public resource 
which was given to them. In light of this, creating and 
operating the kids.us domain is a perfectly appropriate cost of 
doing business.
    I would like to conclude by asking the question, ``How can 
we stand by and do nothing in the face of this known threat to 
our children?'' And that's what we have been doing for many 
years. The creation of a kids.us domain will not only help 
parents navigate the Web for their children, it will serve to 
raise awareness of the dangers lurking on the Internet and 
motivate parents, educators, and care givers to be more 
vigilant in protecting children.
    In addition, I believe that the new domain will encourage 
the proliferation of sites that are entertaining and 
educational for children, which can only have a positive effect 
on our culture. I urge the Committee to swiftly pass this 
legislation and send it to the President in the short window 
before the end of the 107th Congress.
    Thank you for the opportunity to appear before you today, 
and I would be happy to answer any questions that you may have 
for me.
    [The prepared statement of Mr. Shimkus follows:]

               Prepared statement of Hon. John Shimkus, 
                   U.S. Representative from Illinois

Introduction
    Thank you, Senator Dorgan and Members of the Committee. It is an 
honor to be here this afternoon to testify on S. 2537, H.R. 3833, The 
``Dot Kids Implementation and Efficiency Act.''
    I would like to thank you and Senator Ensign as the Senate sponsors 
of this bill, as well as Congressman Ed Markey and the Telecom 
Subcommittee Chairman Fred Upton for their tireless effort and 
leadership on this project.
    The World Wide Web is a mixed blessing. On one hand it holds a 
wealth of information and is quickly becoming an essential educational 
tool. On the other hand, it has a dark underside that is capable of 
harming our children. Pornography and violence are just a few 
keystrokes away, and children can easily expose themselves to serious 
physical and financial risk--all in the comfort of their own living 
rooms. Dangerous prescription drugs and online gambling sites can be 
accessed at the click of a hyperlink and personal information can 
easily be given to the wrong people. Most disturbing are the all too 
frequent stories we read of children abducted and harmed by bad actors 
who lured them into Internet chatrooms.
    Unfortunately, little can be done to clean up the seedy aspects of 
the web. While I praise the Department of Justice for increased 
prosecution of online child pornographers, law enforcement still 
remains ill equipped to police illicit activity on the Internet. The 
FTC and FBI are buried in cases of online fraud and identity theft. 
Meanwhile, the Supreme Court recently ruled that virtual child 
pornography is protected speech under the First Amendment. Add to this 
the borderless nature of the Internet. We can pass all of the Internet 
laws we want, but they cannot be enforced on sites that are located 
outside of the United States.
    When it comes to Internet safety, nothing can replace parental 
supervision. Yet parents are desperate for more tools to help keep 
their children safe on this new electronic medium. That is why my 
colleagues and I have taken a positive approach to the problem by 
introducing the ``Dot Kids Implementation and Efficiency Act.'' This 
bill has been endorsed by the National Center for Missing and Exploited 
Children, the National Law Center for Children and Families, a Safer 
America for Everyone (SAFE) as well as by the Family Research Council.

The Legislation Explained
    Just like a children's section of the library, The Dot Kids Act 
establishes a child-friendly secondary domain, within the ``.us'' 
country-code, that is intended for children 12 and under. Therefore, 
all sites on this subdomain would have the suffix ``kids.us'' instead 
of ``.com'' or ``.org.'' The U.S. Department of Commerce's National 
Telecommunications Information Administration (NTIA) would oversee the 
implementation of ``kids.us.'' The bill sets out the content goal posts 
of ``not harmful to minors'' and ``suitable for minors.'' However, the 
specific written content standards will be established by the private 
sector under the direction of the registry (NeuStar), which is 
currently administering our nation's country-code.
    Placing this child friendly site within the ``.us'' country-code is 
a brilliant strategy that avoids the traditional pitfalls. First, it 
does not affect anyone's right to free speech. Use of the domain is 
strictly voluntary. Sites can choose to locate there and parents can 
choose to utilize it alone, or in conjunction with other safety 
technologies. While ``kids.us'' will have only content that is child-
friendly, all types of speech can be placed anywhere else on the 
Internet--on ``.com,'' ``.org'', etc., and even on the rest of the 
``.us'' space.
    Second, the subdomain will be as safe as it can possibly be. In 
addition to the application of the Child Online Privacy Protection Act 
(COPPA) standards, a number of additional safeguards were put into this 
bill. ``Kids.us'' will be effectively monitored. Should objectionable 
material appear it will be taken down immediately. The bill bans 
hyperlinks that would take children outside of the ``kids.us'' space 
and into an unsecured area. Similarly, the use of chatrooms and instant 
messaging services are restricted unless the registry certifies that 
they will be done without putting children at risk. (I am told that a 
number of technologies are being developed that will enable these 
interactive services to be done safely.) Moreover, on the remote chance 
that ``kids.us'' degenerates into a place with harmful material, the 
bill calls for the Department of Commerce to ``pull the plug'' on the 
space.
    Third, knowing that this space could be a target for inappropriate 
material, the Dot Kids Act provides the ``kids.us'' registry, 
registrars and third party contractors with liability protection that 
Internet Service Providers currently enjoy. The bill extends to these 
entities the protections of the ``Good Samaritan Clause'' in Section 
230(c) of the Communications Act. This would prevent, for example, a 
pornographer from suing the registry if he or she wanted to post smut 
on ``kids.us'' and was told no. We feel good about giving this level of 
protection to NeuStar because Section 230(c) has survived numerous 
court challenges.
    Finally, the ``kids.us'' domain will come at no additional burden 
to American taxpayers. I would like to emphasize a little-known fact 
about our taxpayer-funded country-code. The Department of Commerce gave 
away the administration of our nation's resource in cyberspace--the 
``.us'' country-code--for free. This means that NeuStar is profiting 
from all those who register sites on ``.us'' without paying one cent to 
the taxpayers for that privilege. The Dot Kids Act simply requires a 
``kids.us'' subdomain to be added to our nation's country-code. The 
legislation still allows NeuStar to profit from the sale of every 
single one of the ``kids.us'' registrations and even goes further to 
allow NeuStar to get out of administering ``kids.us'' if it causes them 
``financial hardship.'' We have worked long and hard with NeuStar to 
accommodate them with this bill. To be honest with the Committee, I 
have never seen a sweeter deal than the one NeuStar has received. This 
country-code is an incredibly valuable public resource, which was given 
to them. In light of this, creating and operating the ``kids.us'' 
domain is a perfectly appropriate cost of doing business.

Conclusion
    I would like to conclude by asking the question: How can we stand 
by and do nothing in the face of this known threat to our children? The 
creation of a ``kids.us'' domain will not only help parents navigate 
the web for their young children, it will serve to raise awareness of 
the dangers lurking on the Internet and motivate parents, educators and 
caregivers to be more vigilant in protecting children. In addition, I 
believe that the new domain will encourage the proliferation of sites 
that are entertaining and educational for children, which can only have 
a positive effect on our culture. I urge the Committee to swiftly pass 
this legislation and send it to the President in this short window 
before the end of the 107th Congress.
    Thank you for the opportunity to appear before you today. I am 
happy to answer any questions you may have.

    Senator Dorgan. Congressman Shimkus, thank you very much. I 
think you've well explained the legislation. We're going to 
have a shorter hearing today. We have the Homeland Security 
bill on the floor of the Senate, and I regret that we are not 
having as lengthy a hearing as we perhaps otherwise would have 
with more witnesses.
    But, having said that, let me just ask you one question, I 
think your statement covers what we, as a Subcommittee, would 
want covered from you in explaining the legislation. Mr. 
Shimkus, what would you say to those who say that this bill 
somehow promotes censorship or would develop some circumstance 
of prevention of information? You covered that in your 
statement, but say it again. If I am a critic, and I say, ``Mr. 
Shimkus, are you in favor of censorship? Is that what you're 
doing here?''
    Mr. Shimkus. And the answer is, ``Absolutely, no,'' because 
this is a voluntary location specifically set aside on the 
entire Web, very similar to what we do in a public library. I'm 
not for banning of books. I'm not for burning of books. I think 
there should be a library for people to go and read all the 
great authors we have had in our country. But there is a 
separate place in a library for children's reading material, 
and that is what we're trying to do. If I am an adult, and I 
want to read children's reading materials, I can go there. But 
we don't want pornographers trying to stick Playboy magazines 
in the stacks of the children's library. And so we're going to 
have monitoring to pull out inappropriate material.
    It is voluntary from the people who want to use the service 
and profit by it. It is voluntary for the parents who want to 
use that site. So I think the voluntary nature we've always 
used in the discussion, ``It's a green-light approach.'' It is 
not an attempt to create the red-light districts as we try--we 
initially thought about XXX and pushing people in and 
segmenting them. This is a voluntary green-light approach which 
people have to want to go into.
    Senator Dorgan. Senator Ensign?
    Senator Ensign. No questions.
    Senator Dorgan. Congressman Shimkus, let me thank you again 
for the work you've done on this. We will have other witnesses 
today and ask them additional questions, but I think you have, 
on behalf of your colleagues, given us a really thorough 
description of what your intention was.
    Senator Ensign and I, as you've indicated, have introduced 
a companion bill here in the Senate, which is the purpose of 
this hearing.
    Mr. Shimkus. Thank you, Senator. And I would be remiss--I 
know you're a good friend of Ed Markey, and he did yeoman's 
work with me to move this. This bill has changed significantly 
from when we first started with just a Dot Kids major domain 
name to a subdomain. And that was, in going through, as you 
know, the legislative process to fix concerns. And without his 
help and support and that of the Subcommittee's Chairman, I 
don't think we would be here right now.
    Thank you.
    Senator Dorgan. Well, Congressman Markey has testified a 
good many times before this full Committee and Subcommittee, 
please greet him for us.
    Mr. Shimkus. I will. Thank you.
    Senator Dorgan. Thank you very much.
    Next, we're going to call 3 witnesses forward--Mr. Ruben 
Rodriguez, director of the Exploited Child Unit, National 
Center for Missing and Exploited Children; the Honorable Ann 
Brown, former chairman of the Consumer Product Safety 
Commission, now chairman of Safer America for Everyone; and Mr. 
James Casey, director of policy and business development, from 
NeuStar Corporation.
    While they're coming forward to take their seats, let me 
say that I want to put in the record a statement from Jan 
Whitley. Jan is from Silver Spring, Maryland, and I believe is 
here with her 3 children. Jan, are you in the audience? Would 
you identify yourself? And your children are here, and tell me 
their names.
    Ms. Whitley. This is Dana. She is 7. And that's Dara, and 
she is 10.
    Senator Dorgan. Well, we will put your statement in the 
record, and we thank you and your daughters for coming.
    Ms. Whitley. Thank you very much.
    Senator Dorgan. And Jan's daughters are, like Senator 
Ensign's children and my children and all the children of our 
country, they are, I'm sure, wonderful young people that want 
to use the Internet as a great, new resource in their lives, 
but we, as parents, want them to be able to use it with some 
protection and some understanding that they're not being 
subjected to horribly inappropriate material. And that's the 
purpose of the legislation.
    And so, again, Jan Whitley, thank you very much, and your 
statement will be a part of the permanent record.
    Mr. Rodriguez, you are director of the Exploited Child Unit 
of the National Center for Missing and Exploited Children in 
Alexandria, Virginia. Why don't you proceed? Welcome, and thank 
you for being here.

            STATEMENT OF RUBEN RODRIGUEZ, DIRECTOR, 
           EXPLOITED CHILD UNIT, NATIONAL CENTER FOR 
                  MISSING & EXPLOITED CHILDREN

    Mr. Rodriguez. Thank you for the introduction. And Mr. 
Allen sends his regrets. Unfortunately, he is before his own 
chairman this afternoon discussing some issues on the board of 
directors. One of the reasons he sent me and asked me to attend 
is because I have operational responsibility of the National 
Center's Cyber Tip Line, and so I do operations other than just 
issue-related spokesman. And hopefully I would be able to 
answer any questions from the ground level dealing with the 
issue of sexual exploitation of children. I have a statement 
that I would like put into the record.
    First of all, I'm honored to appear before the Subcommittee 
today and express the views of the National Center for Missing 
and Exploited Children regarding the Dot Kids Implementation 
and Efficiency Act of 2002. The National Center for Missing and 
Exploited Children is very aware of and concerned about the 
amount of inappropriate material that children are exposed to, 
wittingly or unwittingly, on the Internet. Moreover, the 
increase in incidents of online victimization of children by 
sexual predators is cause for all concerned citizens to take 
appropriate actions to safeguard our children in cyberspace.
    This bill creates a safe space for children on the Internet 
by utilizing the United States country code ``.us.'' Just like 
creating a children's section in the library, this bill creates 
a protected place for children on the Internet to learn, grow, 
and play safely. This bill is necessary for several reasons. 
More importantly, most importantly, as I see it, there are--
this is a--there are few places designed for children on the 
Internet. Given the vast structure of the Internet, only a 
dedicated space can create a true safe zone for children. By 
creating an Internet space that will only contain child-
friendly material, parents, children, and educators will have a 
healthy place for children to explore and learn on the 
Internet. This bill provides a balanced approach that provides 
safety, encourages learning, and gives parents peace of mind.
    Mr. Chairman, you alluded to a study that the National 
Center funded several years ago that was published by Dr. David 
Finkelhor of the University of New Hampshire, and I want to go 
over some of those numbers you talked about that I think 
basically talks about how big this problem is.
    His study showed that 1 out of 33 youths were aggressively 
solicited online, 1 in 4 youths encountered unwanted child 
pornography or pornography online, and 1 in 5 youths were 
sexually solicited online during the year of that study. We, at 
the National Center's Exploited Children Unit, are all too 
aware of the serious incidents where children who communicate 
with individuals via chat rooms, IRCs, instant messages, the 
fear and the harm's way they put themselves in.
    Content that is available on the Internet, that is 
currently available on the Internet, that children have access 
to, deals with the issues of nudity, sexually explicit 
material, race and hate sites, graphic violence, bomb making, 
and explosive, tobacco, alcohol, and drug use. The types of 
criminal activity that children encounter while on the Internet 
are issues of cyber-stalking, viruses, hacking programs, 
gambling, illegal sale of narcotics, weapons, fraud, and 
pirated software. Any creation of a safe harbor or environment 
for children would be to the advantage of our Nation's 
children.
    Your commitment to enacting legislation that would 
establish a child-friendly space on the Internet by providing 
access to material that is both suitable for minors and is not 
harmful to minors is an important step in protecting our most 
vulnerable population from computer-facilitated exploitation. 
We commend you and your colleagues on this important 
initiative.
    As the Science, Technology, and Space Subcommittee moves 
forward on this legislation, please know that the National 
Center supports the goals of the Dot Kids Implementation and 
Efficiency Act, and we would urge consideration by the Senate 
of this important legislation.
    [The prepared statement of Mr. Rodriguez follows:]

Prepared statement of Ruben Rodriguez, Director, Exploited Child Unit, 
            National Center for Missing & Exploited Children

    Chairman and Members of the Committee, I am honored to appear 
before your Subcommittee today and express the views of the National 
Center for Missing & Exploited Children (NCMEC) regarding the ``Dot 
Kids Implementation and Efficiency Act of 2002.''
    The National Center for Missing & Exploited Children is very aware 
of and concerned about the amount of inappropriate material that 
children are exposed to, wittingly or unwittingly, on the Internet. 
Moreover, the increase in incidents of online victimization of children 
by sexual predators is cause for all concerned citizens to take 
appropriate actions to safeguard our children in Cyberspace.
    This bill creates a safe space for children on the Internet by 
utilizing the United States country code domain (``.us''). Just like 
creating a children's section in a library, this bill creates a 
protected place on the Internet for children to learn, grow, and play.
    This bill is necessary for a number of reasons:

 <bullet>   There are few places designed for children on the Internet. 
        Given the vastness of the Internet, only a dedicated space can 
        create a true safe zone for children.

 <bullet>   By creating an Internet space that will only contain child-
        friendly material, parents, children, and educators will have a 
        healthy place children can explore and learn on the Internet. 
        This bill provides a balanced approach that provides safety, 
        encourages learning, and gives parents peace of mind.

    A study funded by the National Center and published in June 2000 by 
Dr. David Finkelhor of the University of New Hampshire revealed that: 1 
in 33 youths were aggressively solicited online, 1 in 4 youths 
encountered unwanted pornography online and 1 in 5 youth were sexually 
solicited online in the past year.
    We at the National Center's Exploited Child Unit are all too aware 
of serious incidents where children who communicate in the Internet via 
chat room, IRC or instant messaging with individuals who they believe 
are peers or friends, but who eventually turn out to be individuals who 
are not who they say they are. All too frequently, we see children 
traveling or meeting these individuals and find out to late that they 
have put themselves in harm's way.
    Content on the Internet that is currently accessible to children 
deals with nudity, sexually explicit material, hate and racist, graphic 
violence, bomb making and explosives, tobacco, alcohol and drug use. 
The type of criminal activity that children may encounter on the 
Internet is cyber stalking, viruses, hacking programs, gambling, 
illegal sale of narcotics, weapons, fraud and pirated material. Any 
created ``safe harbor or environment'' would be to the advantage of our 
nations children.
    Your commitment to enact legislation that would establish a child-
friendly space on the Internet by providing access to material that is 
both suitable for minors and is not harmful to minors is an important 
step in protecting our most vulnerable population from computer-
facilitated exploitation. We commend you and your colleagues for this 
important initiative.
    As the Science, Technology and Space Subcommittee moves forward on 
this legislation, please know the National Center for Missing & 
Exploited Children supports the goals outlined in the ``Dot Kids 
Implementation and Efficiency Act of 2002'' and would urge 
consideration by the Senate of this important legislation.

    Senator Dorgan. Mr. Rodriguez, thank you very much.
    Ann Brown? Ann, we should thank you for your chairmanship 
of the Consumer Product Safety Commission for many years. I 
deeply appreciated the work you did, and we miss you, you've 
had an opportunity to testify before this Committee on previous 
occasions. And I see your role now is as chairwoman of Safer 
America for Everyone. We appreciate your being here. Why don't 
you proceed?

   STATEMENT OF HON. ANN BROWN, CHAIRMAN, SAFER AMERICA FOR 
                        EVERYONE (SAFE)

    Ms. Brown. Thank you. Good afternoon, Mr. Chairman and 
Senator Ensign.
    For the record, my name is Ann Brown, Chairman of Safer 
America for Everyone. I'm also the former Chairman of the U.S. 
Consumer Product Safety Commission, and my entire career has 
been devoted to keeping kids safe. And I appreciate very much 
your inviting me to testify today.
    When I left CPSC last November, I formed SAFE as a 
nonprofit organization to carry on many of the consumer 
protection activities that I began while Chairman of the CPSC, 
and to expand that work into other areas important to the 
safety of children, including Internet safety. That's why I 
strongly support the Senate bill today as I supported this 
legislation when it passed the House earlier this year.
    Nearly 24 million youth use the Internet. By the year 2005, 
it's expected that 77 million youth will regularly log on. SAFE 
has firsthand knowledge of kids on the Internet. SAFE is 
currently developing a safety-related Website proposal aimed at 
so-called ``tweens,'' or kids between the ages of 9 and 12. In 
one focus group, we asked middle-school students how they used 
the Internet. Virtually every student said they used the 
Internet for their studies, recreation, chat rooms, and instant 
messaging. And, in fact, most of these students, in just this 
one focus group, said they had encountered inappropriate 
material on the Internet.
    The Crimes Against Children Research Center reported that 1 
in 5 teenagers who regularly use the Internet have received an 
unwarranted sexual solicitation. We hear stories every day 
about children encountering violence and pornography on the 
Internet. Earlier this year, a young girl was killed in 
Danbury, Connecticut, by an Internet predator. Many other 
children have been victimized over the Internet.
    As a grandmother--we've heard a lot about the parents of 
kids. As a grandmother of kids who surf the net, I am 
concerned, as are many parents across the Nation, about the 
dark side of the Internet which our children can be exposed to 
through a couple of mouse clicks or the misspelling of a 
Website name. And I did a piece on this on CNN. We got a 
tremendous response from parents. The parents and grandparents 
out there are worried about this. Every parent wants to protect 
their children from a nightmare that no family, no community 
ever wants to experience.
    This legislation creates a safe haven for children. This 
bill will help preserve our children's innocence and prevent 
these types of sexual encounters and predators and pornography 
online. It will create a child-friendly zone. And all contents 
of this zone will be appropriate for kids 12 and under, just 
like a safe playground. Our children need a safer place on the 
Internet to grow and learn and be entertained.
    This legislation, as we have heard, would create something 
akin to a children's section of the library. We hear about that 
a lot, but it is such an appropriate comparison. Whenever I 
took my daughters when they were young--and now my 
grandchildren--to the children's section of the library, I was 
confident that the books and magazines they found there would 
be suitable.
    And I'm glad to see safeguards built into the legislation. 
An independent firm will regularly monitor and immediately 
remove any content that is harmful to minors. No access to chat 
rooms. Furthermore, there would not be any interactive 
component here where a predator could break in. These are 
important provisions.
    Mr. Dorgan and Members of the Subcommittee, this 
legislation makes good sense. Some may say there are too many 
safeguards, but my way of thinking is that when you're dealing 
with children, more is better. And another thing, some may 
worry that this bill chills the First Amendment. Well, you may 
know that I'm a big advocate of the First Amendment. I'm not 
worried. This bill doesn't tell anyone what they can put on a 
.com, .net or a .org domain, and the bill doesn't curtail 
speech within the .us domain. Just like the library, there is 
no ban on books, but there is a safe haven for kids with 
appropriate material for them.
    The bill only says if you want to operate in the Dot Kids 
area, ``You have entered a kid-friendly zone where the content 
has to be suitable for children 12 and under.'' This bill 
requires the government to publicize the availability of this 
new domain and to educate parents how to master the technology 
tools to use it. This is essential. You can build a field of 
dreams, but if nobody knows where it is, they won't come.
    And, in the meantime, in closing, until we have the 
safeguards, I would like to suggest that parents follow some 
basic Internet safety tips to protect their kids. This list and 
information appears on the SAFE Website at www.saferam.org, and 
I am pleased to submit a copy for the record today.
    Thank you.
    [The prepared statement of Ms. Brown follows:]

   Prepared statement of Hon. Ann Brown, Chairman, Safer America for 
                            Everyone (SAFE)

    Good afternoon, Senator Dorgan, Senator Ensign, and Members of the 
Subcommittee. For the record, my name is Ann Brown, Chairman of SAFE, 
(Safer America for Everyone). I am also the former Chairman of the U.S. 
Consumer Product Safety Commission. I appreciate your inviting me to 
testify as a strong supporter of S. 2537, the ``Dot Kids Implementation 
and Efficiency Act of 2002.''
    When I left CPSC last November, I formed SAFE as a non-profit 
organization to carry on many of the consumer protection activities I 
began while Chairman of the CPSC, and to expand that work into other 
areas important to the safety of children--including Internet safety.
    This is why I strongly support the Senate bill today, as I 
supported this legislation when it passed the House earlier this year.
    Nearly 24 million youths today use the Internet. By the year 2005, 
it is expected that 77 million youth will regularly log on.
    SAFE has first-hand knowledge of kids and the Internet. SAFE is 
currently developing a safety-related website proposal aimed at so-
called ``tweens,'' or kids between the ages of 9-12. In one focus 
group, we asked middle school students how they used the Internet. 
Virtually every student said they used the Internet for their studies, 
recreation, chat rooms and instant messaging. In fact, most students 
said that they had encountered ``inappropriate material'' on the 
Internet.
    The Crimes Against Children Research Center reported that 1 in 5 
teenagers who regularly use the Internet have received an unwanted 
sexual solicitation. They also report that 1 out of 33 youths have 
received what is classified as an aggressive sexual solicitation where 
they are directly trying to solicit a sexual meeting with a teenager.
    We hear stories every day about children encountering violence and 
pornography on the Internet. Earlier this year, a young girl was killed 
in Danbury, Connecticut by an Internet predator. Many other children 
have been victimized over the Internet.
    As a grandmother of kids who surf the net, I am concerned, as many 
parents across this nation are, about the dark side of the Internet, 
which our children can be exposed to through a couple of mouse clicks, 
or the misspelling of a website name.
    Every parent wants to protect their children from a nightmare that 
no family, no community ever wants to experience.
    This legislation creates a safe haven for children. This bill will 
help preserve our children's innocence and prevent these types of 
sexual encounters and predators and pornography online. It will create 
a child-friendly zone within the United States. All contents of this 
zone will be appropriate for children 12 and under.
    Just like a safe playground, our children need a safe place on the 
Internet to grow, learn, and be entertained--and to avoid the current 
onslaught of pornography, child predators, and other undesirable 
information on the World Wide Web.
    This legislation would create something akin to a children's 
section of a library. Whenever I took my daughters when they were 
young--and now my grandchildren--to the children's section of the 
library, I was confident that the books and magazines they found there 
would be suitable.
    I am glad to see safeguards built into the legislation. An 
independent firm will regularly monitor and immediately remove any 
content that is harmful to minors. There would be no access to chat 
rooms. The legislation would bar that. Furthermore, there would not be 
any interactive component here where a predator could break in. These 
are important provisions since we would not want to open the door of 
our safe place to any unwanted predators.
    This is so our children can have a safe haven.
    Mr. Dorgan, and Members of the Subcommittee, this legislation makes 
good sense.
    Some may say there are too many safeguards. But my way of thinking 
is that when you're dealing with children--more is better.
    And another thing, some may worry that this bill chills the First 
Amendment. You know, I'm a big advocate of the First Amendment. I'm not 
worried. This bill doesn't tell anyone what they can put on a ``dot 
com,'' or a ``dot net,'' or a ``dot org'' domain. And, the bill doesn't 
curtail speech within the ``dot us'' domain.
    The bill only says if you want to operate in the ``dot kids'' area, 
you have entered a kid-friendly zone where the content has to be 
suitable for a child 12 years and under.
    The bill also requires the government to publicize the availability 
of this new domain and to educate parents how to master the technology 
tools to use it.
    This is essential.
    You can build a field of dreams, but if nobody knows where it is, 
they will not come.
    I would like to see the Senate pass this bill and give our children 
a safe haven in this veritable jungle of websites.
    And, in the meantime, until we have these safeguards, I would like 
to suggest that parents follow some basic internet safety tips to help 
protect their kids. This list appears on the SAFE website at 
www.saferam.org, and I am pleased to submit a copy for the record 
today. Thank you.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Dorgan. Ann Brown, thank you very much for you 
testimony, and we will include the Internet Safety Tips as a 
part of the record, as well.
    Mr. Casey, you are the director of policy and business 
development at NeuStar, and we appreciate your being here 
today. You clearly have a real and significant interest in this 
legislation, so please proceed with your statement.

 STATEMENT OF JAMES A. CASEY, DIRECTOR OF POLICY AND BUSINESS 
                   DEVELOPMENT, NeuStar, INC.

    Mr. Casey. Thank you. Mr. Chairman, Members of the 
Subcommittee, good afternoon. For the record, I'm Jim Casey, 
director of policy and business development at NeuStar, Inc. 
Thank you for inviting us. We're honored to have the 
opportunity to comment on such an important matter and are 
pleased that the Senate is giving it its full consideration.
    To provide context to my testimony, I offer a brief 
background on NeuStar. NeuStar is a leading trusted neutral 
third-party provider of critical infrastructure services to 
both the telecommunications and Internet industries. We have a 
rich heritage of developing innovative solutions for the 
responsible management of critical public resources, like the 
.us domain. For example, NeuStar designed, built, and manages 
the Number Portability Administration Center, one of the 
largest databases in the world. NeuStar's numbering services 
enable the routing of virtually every telephone call dialed 
within the United States and most of North America. Likewise, 
.biz and .us Internet registries provide stable, high-
availability domain name services to the global Internet 
community. We are quite well versed in operating within dynamic 
industries where there are many competing points of view and 
competing interests across a dynamic range of operators. So we 
are happy to bring this same level of service to the 
responsible development of a kids.us domain, a goal to which we 
remain committed.
    The question of how we, as a society, can protect children 
on the Internet has long perplexed individuals, industry, and 
government. Numerous efforts, including browser filters, 
legislative mandates, educational campaigns, and ratings 
systems have all met with varying levels of success. Clearly, 
the problem has yet to be solved. And that is, of course, why 
we're here today.
    In recent years, the concept of a kids' space on the 
Internet has developed and gained some acceptance. The proposed 
legislation that is the topic of this hearing seeks to create 
such a space, but does so in a manner that we believe will not 
achieve the policy objectives, the vision of a kids.us domain.
    So what is NeuStar's vision of a kids.us domain? Similar to 
what everyone has already spoken to, NeuStar is working to 
create a new second-level Internet domain within the .us that 
can serve as a source of positive child-appropriate materials 
on the Internet. It is clear, however, that this would only be 
one tool. The simple creation of an Internet domain cannot, by 
itself, solve the entire problem.
    As noted by the National Academy of Sciences in its recent 
report, ``Youth Pornography and the Internet,'' there is no 
single approach that will, on its own, protect children from 
online dangers. A place for children on the Internet can only 
be successful when put in place in conjunction with parental 
involvement, adult supervision, social and educational support, 
and publicly available, user-friendly, and cost-effective, 
technology-based tools. Absent these, it's just a bunch of 
Website addresses.
    In addition, to be truly successful, the kids.us must 
create a trusted domain that provides useful and meaningful 
content that children will use and must be implemented in a 
manner that makes operational sense for the various service 
providers for the domain, including not only the registry name, 
which NeuStar will be, but the registrars, the content 
managers, and various responsible content providers. Put 
simply, the formula for success of the kids.us vision is based 
on sound analysis of the service as an ongoing operation.
    Following this approach, NeuStar has begun a detailed 
development process and has reached an important milestone in 
our development strategy. After an extended period of 
development review and analysis as well as discussions with 
recognized and respected organizations and individuals 
knowledgeable on these issues, on Friday, August 30th, NeuStar 
released for public comment a proposal for guidelines and 
requirements for the kids.us second-level domain, which we have 
included in our testimony package.
    NeuStar seeks broad public input on a set of content 
guidelines and certain other concepts that have been raised in 
our development efforts and through the legislative process 
thus far. This open and transparent process will be used to 
finalize a set of guidelines for registering and activating the 
kids.us domains.
    The process leading up to the development of these draft 
guidelines is indicative of the kind of process we must adhere 
to in the development of the domain as a whole. We do not have 
all of the answers yet. It would be irresponsible of us to roll 
out a service as though we did.
    The proposed legislation represents a sweeping mandate that 
likely would not facilitate the kind of analysis and sound 
development processes that should be followed. My written 
testimony contains more detailed discussion of these points.
    Legislation at this point in time likely will do more harm 
than good to a child-friendly environment within .us. As I've 
said, NeuStar is committed to the development of a kids.us 
domain. We will continue to work with Congress and the 
Department of Commerce, as well as a wide range of public and 
private organizations and institutions toward the successful 
development of kids.us. The bottom line is, let's do it right, 
for children's sake.
    Thank you.
    [The prepared statement of Mr. Casey follows:]

 Prepared statement of James A. Casey, Director of Policy and Business 
                       Development, NeuStar, Inc.

Introduction

    NeuStar, Inc. (``NeuStar'') appreciates the opportunity to testify 
before the Subcommittee on Science, Technology and Space of the Senate 
Committee on Commerce, Science, and Transportation on S. 2537, the Dot 
Kids Implementation and Efficiency Act of 2002. The development and 
implementation of a namespace for kids on the Internet is an important 
topic and NeuStar is pleased that both the House of Representatives and 
the Senate are considering this matter. NeuStar offers these comments 
to help ensure that the actual implementation of a ``kids.us'' space is 
consistent with the important vision that has driven the efforts of 
many individuals and organizations, in both government and the private 
sector.

Dedicated to Service and to ``Getting it Right''
    To provide context to NeuStar's testimony, it is important to have 
an understanding of the company, its mission, and principal operations.
    Since its founding, NeuStar, a privately held technology and 
registry company, has established its reputation as the premier trusted 
neutral third-party provider of critical infrastructure services and 
has developed lines of business serving both the telecommunications and 
Internet industries. As a result, NeuStar has been selected numerous 
times by both government and industry in open, competitive procurements 
to provide first-of-a-kind, mission-critical services. For example, 
NeuStar designed, built, and manages the Number Portability 
Administration Center (NPAC), one of the largest databases in the 
world. NeuStar's numbering services enable the routing of virtually 
every telephone call dialed within the United States, and most of North 
America. Likewise, NeuStar's .biz and .us Internet registries provide 
stable, high-availability domain name services to the global Internet 
community. Thus, integrity, stability, and neutrality are the 
underpinnings of NeuStar's services; failure is not an option.
    NeuStar's expertise is not limited to systems development, and we 
are not merely a systems developer. Working closely with our clients 
and stakeholders, we design and develop comprehensive systems, and 
processes, as well as necessary policies and requirements to ensure 
success. The detailed analysis conducted as part of these development 
processes enables us to understand first-hand any issues that may arise 
and to address them quickly and intelligently. NeuStar brought this 
expertise to the .us country code top-level domain when it was selected 
by the Department of Commerce (``DOC'') in October 2001 to assume 
operation of and to enhance .us. Similarly, NeuStar will bring this 
same expertise to the responsible development and implementation of a 
kids.us domain.

History of Kids.us
    The question of how we, as a society, can protect children on the 
Internet has long been a perplexing question for individuals, industry 
and government. Numerous efforts, including browser filters, 
legislative mandates, educational campaigns, and rating systems have 
all met with varying levels of success. By no means, however, has the 
problem been solved. As with any important matter, if the solution were 
easy, someone would have fixed the problem long ago.
    In recent years, the concept of a ``kid's space on the Internet'' 
has developed and gained some acceptance. The idea was focused, in the 
first instance, on the establishment of a new .kids top-level Internet 
domain. With the reintroduction and expansion of .us, however, efforts 
shifted to the development of a kids.us space, rather than the creation 
of a generic Top-Level Domain (TLD).
    In our proposal to become the new administrator of the .us country-
coded Top-Level Domain (ccTLD). NeuStar proposed the reservation of 
certain domain names to protect the rights of others, prevent certain 
names from being used inappropriately, and/or provide for certain 
future public services. The ``kids'' domain name was among this 
illustrative list of reserved names.
    With respect to ``kids,'' it was NeuStar's intention that, if a 
kids space on the Internet could feasibly be developed in a responsible 
way, the kids.us domain name would be available for provision of the 
service. There was no intent for NeuStar, however, to immediately begin 
the rollout of such a service. Indeed, it was not clear how that 
rollout might be done or if it was even a good idea. Through our 
discussions with the DOC and Members of Congress and their staff, it 
became increasingly clear, however, that the implementation of a 
kids.us space was a priority issue and that NeuStar would be 
responsible for implementation of the space. The House passed bill, 
however, creates a framework that threatens the success of the kids.us 
effort, as well as the stability and integrity of the .us domain 
itself.
    Despite concerns with the bill, however, NeuStar remains committed 
to the vision of a .kids.us domain.

The NeuStar kids.us Vision
    So what is the NeuStar kids.us vision?
    NeuStar hopes to create a new second-level Internet domain within 
.us that can serve as a source of positive, child-appropriate materials 
on the Internet for use by children and families. NeuStar is committed 
to the pursuit of this vision. It is clear, however, that the simple 
creation of an Internet domain cannot, by itself, solve the entire 
problem. As noted by the National Academy of Sciences (NAS) in its 
recent report ``Youth, Pornography, and the Internet,'' there is no 
single approach that will, on its own, protect children from online 
dangers.\1\ Thus, a place for children can only be effective if it is 
accompanied by the many components identified by the NAS, including 
parental involvement, adult supervision, social and educational 
support, and publicly available, user-friendly, and cost-effective 
technology-based tools.
---------------------------------------------------------------------------
    \1\ Youth, Pornography, and the Internet, Dick Thornburgh and 
Herbert S. Lin, Editors, Committee to Study Tools and Strategies for 
Protecting Kids from Pornography and Their Applicability to Other 
Inappropriate Internet Content, Computer Science and Telecommunications 
Board, National Research Council (May 2002).
---------------------------------------------------------------------------
Practical Considerations for kids.us
    In addition, to be truly successful, the kids.us vision must meet 
certain practical realities. Specifically, the domain must be 
established in a manner to ensure that it is attractive to content 
providers, is supported by a viable long-term business plan, and 
ultimately would be used by the children and families that it is meant 
to serve.
    Therefore, to maximize participation by both content providers and 
children, kids.us must:

 <bullet>   Be an economically viable space for all service providers, 
        including the registry, the registrars, and the entity 
        responsible for content review and monitoring, as well as the 
        content providers that would use the domain.

 <bullet>   Be widely used by its target audience so that more content 
        providers adopt names in the space.

 <bullet>   Establish necessary, economically reasonable mechanisms to 
        ensure that contents meet the kids.us guidelines.

 <bullet>   Not threaten the viability or integrity of the .us domain 
        itself.

    These implicit goals for the implementation of kids.us are as 
important to the overall success of kids.us as the vision itself.
Sound business analysis of the kids.us vision
    Taking into account the ultimate goal for a kids Internet domain, 
as well as the underlying practical matters that must be considered, to 
develop a successful kids.us domain, NeuStar must comprehensively:

 <bullet>   Analyze the needs of children and parents, children's 
        content providers, and domain name service providers in a 
        kids.us domain;

 <bullet>   Assess the limitations--technology, legal, or otherwise--
        that pose barriers to meeting the needs of all kids.us 
        stakeholders;

 <bullet>   Assess the legal and business risks to each stakeholder 
        inherent in the use or provision of a kids.us domain; and

 <bullet>   Research the market for kids.us to develop sustainable 
        business structures and service models to ensure market 
        success.

    Put simply, the formula for success of the kids.us vision is based 
on sound analysis of the service as an ongoing business operation. Can 
the vision be met in a cost-effective manner to meet the needs of the 
customer? If yes, then the service should be developed and introduced 
based on sound business principles. If not, then the domain likely will 
fail and should not be pursued as a solution.
    NeuStar's efforts to date have been focused upon gathering 
sufficient information to meet the feasibility and other requirements 
for success listed above. As a result of our development planning, as 
well as outreach to experts in kid's media, we have developed a process 
for moving forward on a kids.us domain.
    As an important milestone in our development strategy, on Friday, 
August 30, 2002, NeuStar released for public comment a draft ``Proposal 
for Guidelines and Requirements for the kids.us Second Level Domain.'' 
This document is the result of extensive dialog with and input from a 
wide range of groups and organizations expert in children related 
issues. It seeks public input on a set of content guidelines and 
certain other concepts that have been raised in research and through 
the legislative process. These comments will be used to finalize a set 
of content guidelines to be used in registering and activating kids.us 
domains.\2\ Other efforts include the continued analysis and 
development of effective business models to address the issues raised 
above.
---------------------------------------------------------------------------
    \2\ A copy of the ``Proposal for Guidelines and Requirements for 
the kids.us Second Level Domain'' is attached.
---------------------------------------------------------------------------
The proposed legislation
    The bill passed by the United States House of Representatives 
represents a comprehensive definition of an Internet namespace, 
kids.us, and is a sweeping mandate that does not properly consider all 
of the technical, market, and policy challenges. For example, strict 
restrictions on interactive services raises the question of whether 
children would seek to use the domain given that it would be comprised 
of largely static, non-interactive content. More importantly, however, 
concerns with the current legislation extend beyond any specific 
language changes to much more fundamental issues. These issues include, 
for example, the following:

 <bullet>   The bill replaces sound business practice with regulatory 
        mandate. The specific definition of business practices, 
        responsibilities of varying parties and content requirements 
        represent unprecedented regulation of the Internet;

 <bullet>   The bill interferes with existing efforts for the effective 
        development of the kids.us domain under the terms and 
        conditions of the .us government contract;

 <bullet>   The bill takes the unprecedented step of requiring a 
        government contractor potentially to sustain a significant 
        financial loss on a government contract, without taking into 
        account the effect of that loss on the kids.us space or the .us 
        domain itself. Moreover, it fails to account for the 
        corresponding financial losses to other service providers, such 
        as registrars and content managers, that must contract with the 
        registry; and

 <bullet>   The bill forces a timeline on the development process that 
        likely will not allow the development of a successful solution 
        that implements the kids.us vision in a safe and sustainable 
        manner. Thus, the bill is unlikely to achieve its policy 
        objectives.

    Thus the legislation, as proposed, likely will do more harm than 
good to a child-friendly environment within the .us ccTLD. Indeed, it 
likely will impede rather than promote the realization of the kids.us 
vision.

Conclusion
    NeuStar, in recognition of the important public interest goals 
served by the development of a ``kid's domain,'' is committed to the 
responsible introduction of kid.us. Therefore, NeuStar will continue to 
work with a wide range of public and private organizations and 
institutions, as well as the Congress, toward the successful 
development of the kids.us domain without the need for the kind of 
comprehensive legislation contained in the proposed bill.
                                 ______
                                 
 Proposal for Guidelines and Requirements for the kids.us Second Level 
                                 Domain

A Word from NeuStar
    NeuStar has developed these proposed Guidelines and Requirements 
with the objective of facilitating the development of an Internet 
domain for children. This objective is only achievable with the input 
of a broad range of experts and other interested parties. With the 
public posting of this paper, NeuStar is seeking input and advice from 
members of the children's content community, child advocacy groups, 
parents, educators, law enforcement organizations, and other interested 
individuals. In crafting this initial draft proposal, NeuStar has 
relied on the excellent body of work focused on children and the 
Internet that is available today in the public domain. With the 
publication of this paper, we invite all members of the public with 
expertise in children's media, law enforcement, education, parenting, 
Internet use, technology, as well as the interested public at large to 
provide us with input on any or all aspects of this paper. We will 
review your input carefully and make the greatest effort practicable to 
reflect your concerns.
    To learn more about how to participate in this project, please look 
inside this document under the heading ``Process for Providing Input 
Into the Creation of the kids.us Domain.''
    Thank you very much for your interest and contribution to this 
challenging and important project.
    NeuStar, Inc.
I. Introduction

Background
    More than 140 million Americans, half of our Nation, are now 
online. Ninety percent of the children in America between the ages of 5 
and 17 now use computers and 65 percent of 10-13 year olds use the 
Internet today. Usage among even the youngest members of our society is 
significant, with more than 84 percent of 5-9 year olds using computers 
at home, school, or both.\1\ Our nation's youngest citizens are 
increasingly gaining access to the Internet. How children use the 
Internet and what they are exposed to while on line are topics that 
have long been examined, discussed, applauded, and criticized. 
Interested parties and individuals ranging from parents and educators 
to communities and Members of Congress have all expressed great 
excitement at the potential benefits of a distinct place on the 
Internet for our Nation's children. At the same time, however, these 
same groups recognize that there are also serious concerns about and 
problems with exposure to the vast world accessible on the Internet.
---------------------------------------------------------------------------
    \1\ See A Nation Online: How Americans Are Expanding Their Use of 
the Internet, February 2002, U.S. Department of Commerce, Economics and 
Statistics Administration, National Telecommunications and Information 
Administration.
---------------------------------------------------------------------------
    The widespread use of the Internet by children in all aspects of 
their lives demonstrates the demand for a domain designed for children. 
The kids.us domain would be a new, second-level Internet domain within 
the United States country code of dot-us and is being established to 
help promote positive experiences for children and families using the 
Internet.
    In order to design and establish a responsible space on the 
Internet for children, consensus must be reached on certain key 
components of the domain. First, there must be a recognition of how 
children today actually use the Internet. Once a common understanding 
of use is established, then and only then can an effective and 
meaningful kids.us domain be designed. Second, and the focus of this 
document, there must be a publicly acceptable set of content-based 
guidelines and requirements for registrants. As a result, identified 
herein is a proposed set of content guidelines for the kids.us domain. 
The proposed list is by no means exhaustive. We have attempted to 
identify the major publicly and legally accepted children's content 
standards for purposes of application to the kids.us domain. We seek 
input generally on the proposed guidelines and are hopeful that parties 
will both criticize some of the standards included as well as propose 
alternate guidelines and requirements for the domain.
    NeuStar has crafted this proposal for content guidelines and 
requirements based on a mixture of inputs. This document reflects the 
excellent work developed through government and privately-funded 
research, testimony delivered at Congressional Hearings, articles, 
books, and some preliminary conversations with members of the 
children's media communities. Because of the public resource value of 
the kids.us domain, we have taken great effort to reflect a wide 
sampling of the information publicly available. This effort, however, 
is an imperfect one. As a result, each section of this document should 
be considered a proposal, not conclusions or solutions to issues raised 
here or elsewhere. We seek active and thoughtful input on the proposals 
identified here and look forward to building a kids.us domain that 
truly will improve and enhance the online experience of American's 
children.

Core Objectives of kids.us--A Domain for Children
    The objective of the kids.us domain is to facilitate the 
establishment of a friendly and enjoyable environment for children 
using the Internet. The kids.us administrator will rely heavily on the 
input of interested members of the public in general and the children's 
content community in particular to help create a place that will 
engender public confidence and support.
    From the start, it is important to be clear that the kids.us domain 
is not intended to be a cure-all solution to the many problems and 
dangers associated with children's use of the Internet. As the National 
Academy of Sciences (NAS) concluded in the recently released report 
``Youth, Pornography, and the Internet,'' there is no single approach 
that will, on its own, protect children from online dangers.\2\ Rather, 
the kids.us domain is being designed as an alternative on the Internet 
that children, parents, educators, and children's content providers may 
elect to use. A domain for children alone cannot address the larger 
problems associated with children's Internet use. Given the technical 
and legal limitations that plague any Internet domain, a space 
dedicated to children can be targeted by bad actors or subject to 
technical problems. These facts demonstrate that there can be no truly 
safe place or ``haven'' for children. To the contrary, a place for 
children can be effective only if it is accompanied by the many 
components identified by the NAS in their report, including parental 
involvement, adult supervision, social and educational support, and 
publicly available, user-friendly, and cost-effective technology-based 
tools.
---------------------------------------------------------------------------
    \2\ Youth, Pornography, and the Internet, Dick Thornburgh and 
Herbert S. Lin, Editors, Committee to Study Tools and Strategies for 
Protecting Kids from Pornography and Their Applicability to Other 
Inappropriate Internet Content, Computer Science and Telecommunication 
Board, National Research Council (May 2002) (the NAS Report).
---------------------------------------------------------------------------
The Role of NeuStar in the Design and Implementation of the kids.us 
        Domain
    In October 2001, NeuStar, Inc. was selected by the Department of 
Commerce (DOC) to manage the dot-us country code top level domain. As 
part of its contract with the DOC, NeuStar agreed to apply separate 
treatment to a group of reserved names. Among the names reserved was 
``kids'' in order to enable an entity to administer a kids.us domain 
name space. The efforts undertaken here, however, are beyond NeuStar's 
core competence as a registry operator and trusted neutral third party 
administrator of critical infrastructure technology. We undertake this 
initiative to design and build the kids.us domain because of the public 
resource value we see in it as well as the responsibility we have 
assumed as the manager of the country code for the United States. 
Because of our lack of depth in the area of content development and 
content management, we feel it is critical to seek and develop a strong 
public record of support for the ultimate content Guidelines and 
Requirements. We are optimistic that others in the Internet community 
as well as parties involved in the children's media, education, and law 
enforcement fields will recognize the value of this project and share 
their expertise.
    In light of the seriousness of the objectives of the kids.us domain 
and the fact that NeuStar lacks the requisite experience in children's 
content development and monitoring, we propose that there be created a 
role within the kids.us domain that directly addresses these unique 
responsibilities. Specifically, NeuStar believes that it will be 
critical to develop a kids.us Content Manager role. An entity that 
assumes such a role would be responsible for reviewing and approving 
content that is appropriate for the kids.us domain. In addition, this 
Content Manager would assume responsibility for monitoring and 
enforcing the content Guidelines and Requirements that govern the 
kids.us domain for that content which is initially approved. This role 
could be played either by one entity or a number of different entities 
following a common set of guidelines. Content Managers would, of 
course, need to be entities with proven abilities to review and make 
judgments about material that is appropriate for children. We encourage 
parties to comment on the proposal for a content and enforcement 
manager role in the kids.us domain.

Process for Providing Input Into the Creation of the kids.us Domain
    In order for a kids.us domain to be successful, there must be 
meaningful public involvement. Public participation in the design of 
the kids.us domain is crucial. A cornerstone to the construction of the 
kids.us domain is an open and transparent process that involves the 
extensive and serious input of interested parties and individuals. 
Public participation may be carried out by reviewing these draft 
Guidelines and Requirements and posting responsive comments 
electronically. NeuStar has established <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="216a484552654e4c40484f624e4c4c444f5552616f4454725540530f5452">[email&#160;protected]</a>, 
a mailbox created specifically for submission of reactions to this 
paper or any additional relevant information. The kids.us domain 
administrator aspires to be as inclusive as possible as it develops the 
Guidelines and Requirements as well as the mechanisms for enforcement 
that will be key to the implementation of this domain.
    The kids.us domain will also draw on the best available research, 
experiences, and tools to help build a child-friendly place on the 
Internet. To that end, the kids.us administrator will actively seek 
input from individuals and organizations known to address the best 
interests of children, and who have a broad cross-section of 
perspectives. These will include a diverse constituency of educators, 
physicians, parents, child advocates, policy makers, law enforcement 
experts, researchers, technologists, industry experts and others.
    The kids.us administrator is posting these proposed Guidelines and 
Requirements to the Internet, in the interest of creating as open, 
transparent, and public a forum as possible. The comment period will 
begin on August 30, 2002, and will conclude on September 30, 2002. At 
that time, NeuStar will proceed with developing the next draft of the 
Guidelines and Requirements that reflect the comments received during 
the public forum.
    Comments can be submitted electronically to 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b9f2d0ddcafdd6d4d8d0d7fad6d4d4dcd7cdcaf9f7dccceacdd8cb97ccca97">[email&#160;protected]</a>

II. kids.us GUIDELINES AND REQUIREMENTS
Proposed Guidelines and Requirements for the kids.us Domain
    The following are proposed content guidelines and requirements (the 
Guidelines and Requirements) for determining the content that should be 
permissible within any kids.us-approved domain. Each of the standards 
proposed herein are used or accepted today in some area of public 
communications and the media. The goal here is to aggregate existing 
standards and integrate into the kids.us domain. By doing so, we 
propose a means of defining what ultimately could be considered 
acceptable content in a domain for children. We seek active and 
extensive input on these proposed standards both from the perspective 
of what is beneficial to children under 13 and what may in fact be 
enforceable in the public domain of the Internet.

Children Under 13
    We propose that the Guidelines and Requirements regarding content 
for the kids.us domain be designed for children under 13. In selecting 
this age as a benchmark for the kids.us domain, we look to existing law 
and policy standards currently in place. We seek input on whether 13 is 
the appropriate age cut-off for kids.us.

Compliance with Existing Laws, Regulations, and Relevant Voluntary 
        Standards
    All content that is posted within a kids.us-approved domain must be 
in compliance with existing laws, widely adopted children's online 
protection policies, advertising policies, and online privacy 
requirements. Highlighted below are several key legal, regulatory, and 
voluntary standards that impact multi-media children's content today. 
We request input on whether these are the appropriate standards for the 
kids.us domain. In addition, we seek input on additional standards to 
help define the content that should be permitted.

Compliance with Existing Rules and Regulations Regarding Indecency on 
        the Airwaves
    NeuStar, the registry operator for the dot-us top-level domain has 
in place a policy designed to preserve and enhance the value of the 
usTLD to all users, including libraries and schools.\3\ Pursuant to 
this policy, and in light of the public significance of both the usTLD 
and the kids.us second level domain, the registry operator will apply 
this policy throughout the kids.us domain. Pursuant to this policy, the 
registry operator will review, for possible deletion, all registered 
second-level domain names that contain, within the characters of the 
domain name registration, any of the seven words identified in Federal 
Communications Commission v. Pacifica Foundation.\4\ We seek input on 
application of this policy for a kids.us domain and whether, and how, 
it might be expanded and tailored specifically for application to the 
kids.us domain. If commenters support an expanded indecency test, 
please suggest detailed proposals for public review and consideration.
---------------------------------------------------------------------------
    \3\ For the full text of NeuStar's policy statement referred to 
herein, see http://www/nic.us/policies/docs/
registration_review_policy.pdf.
    \4\ 438 U.S. 726, 98 S. Ct. 3026, 57 L.Ed.2d 1073 (1978).
---------------------------------------------------------------------------
Commitment to Offer Some Educational and Informational Content Targeted 
        To Children Under 13
    Pursuant to the Children's Television Act \5\ and the FCC's rules 
implementing this statute,\6\ broadcasters have a public interest 
obligation to air a specific number of hours of programming that offers 
some educational and informational content targeted to children under 
13. We propose to require that all registrants who want approval to 
activate content within the kids.us domain, commit to have some 
component of educational and informational content for children on 
their respective domains. We seek input on the appropriateness of an 
educational and informational content requirement and specific 
proposals for designing and implementing any such requirement. 
Commenters should please provide examples of how the Children's 
Television Act would work in practice for this new Internet-based 
application.
---------------------------------------------------------------------------
    \5\ Cite Children's Television Act (CTA).
    \6\ Cite FCC Docket implementing the CTA.
---------------------------------------------------------------------------
Compliance with the Children's Online Privacy Protection Act (COPPA) 
        Requirements \7\
---------------------------------------------------------------------------
    \7\ Cite COPPA.
---------------------------------------------------------------------------
    The Children's Online Privacy Protection Act (COPPA) requires the 
Federal Trade Commission (FTC) to issue and enforce rules concerning 
children's online privacy.\8\ In doing so, the FTC stated its primary 
goal as placing parents in control over the information that may be 
collected from their children online. Specifically, the COPPA rules 
apply to three groups of website operators: operators of commercial 
websites or online services directed to children under 13 that collect 
personal information from children; operators of general audience sites 
that collect personal information from children under 13; and operators 
of general audience sites that have a separate children's area and that 
collect personal information from children.
---------------------------------------------------------------------------
    \8\ Cite FTC's rules implementing COPPA.
---------------------------------------------------------------------------
    These three groups of operators are required to perform certain 
tasks. First, these operators must post a privacy policy, provide 
notice to parents about the site's information collection practices, 
and in many instances, obtain parental consent prior to collecting 
personal information from children. In addition, the operators must 
provide parents access to their child's information and the opportunity 
to delete information, they may not condition a child's participation 
in an activity on the disclosure of more information than is reasonably 
necessary, and they must maintain the confidentiality, security and 
integrity of the personal information collected from children.
    As stated above, the kids.us domain must be in strict compliance 
with existing laws, including of course, the requirements of COPPA. We 
seek input on whether there are any particular steps from a policy or 
legal perspective that should be addressed to ensure COPPA compliance 
throughout the kids.us domain. Further, we seek input on whether there 
are additional privacy protections that should be considered to ensure 
that the kids.us domain not expose children to privacy-related risks.

Compliance with Children's Advertising Review Unit (CARU) Advertising 
        Standards
    One example of widely adopted policies relating to advertising 
includes the efforts of the Children's Advertising Review Unit (CARU) 
of the Better Business Bureaus. The CARU reviews and evaluates 
advertising in all media directed to children under 12. This includes 
print, broadcast, and cable television, radio, video, CD-ROM, 900/976 
teleprograms, and interactive electronic media. CARU reviews 
advertising to determine consistency with its guidelines. If 
advertising is found to be misleading, inaccurate, or inconsistent with 
the guidelines, CARU works to achieve voluntary cooperation from the 
relevant parties to ensure compliance. All advertising sold by kids.us 
registrants should be in compliance with the CARU Guidelines.\9\ We 
seek input on the value and appropriateness of applying the CARU 
Guidelines or some alternate advertising standard to advertising that 
might appear in the kids.us domain.
---------------------------------------------------------------------------
    \9\ For greater detail on the CARU Guidelines and CARU, please 
refer to www.caru.org.
---------------------------------------------------------------------------
Additional Proposals for Content Standards
    As noted above, NeuStar has prepared this paper based on much work 
that has been accomplished by legislators, public policy centers, 
advocates for children, and members of the children's content 
community. These proposed Guidelines and Requirements are not intended 
to be an exhaustive list. We encourage interested parties to comment on 
all of the proposals and suggest places to remove standards as well to 
consider alternates. For example, we have not proposed a specific 
standard to safeguard against violent content. We recognize that the 
under 13 benchmark might incorporate a violent content ban, but we 
invite commenters to suggest means of defining a bright line test for 
determining when violent content, or any other inappropriate content, 
might be inappropriate for a 12 year old. We strongly urge parties to 
share their expertise to help construct a safe, child friendly 
environment that will also prove attractive to children and consistent 
with how kids use the Internet today.

Proposed Restrictions on Links to Domains that Are Not kids.us-Approved
    We seek input on mechanisms and processes that should be put in 
place to ensure that users of the kids.us domain are not exposed to 
content that is harmful to minors under 13. Specifically, we invite 
input on the wisdom of implementing restrictions on the allowance of 
links from kids.us-approved websites to those domains that are outside 
of the kids.us domain name space and which have not undergone the 
kids.us domain review process. In addition, we seek input regarding the 
best means for prohibiting such movement in the kids.us domain both for 
end users and domain managers.

Mechanisms for Protecting Children from Criminal Activity Online
    We seek input on possible mechanisms for monitoring kids.us for 
criminal activity that might prove harmful to children. In particular, 
we invite the law enforcement community as well as child advocacy 
groups to comment on how to review domains for unlawful activity as 
well as how to ensure that any such criminal activity is referred for 
investigation to appropriate law enforcement entities.

Mechanisms for Protecting Children from Content that Does Not Comply 
        with the Guidelines and Requirements for the kids.us Domain
    We seek input on enforcement and monitoring oversight procedures 
that can be put in place to minimize the likelihood that content which 
is inappropriate for children will be appear on a kids.us domain. 
Commenters should also discuss the potential expenses and allocation of 
costs in the implementation of such monitoring proposals.

Core kids.us Content Restrictions
    In addition to the proposed general standards identified 
immediately above, we also identify a core list of content 
restrictions. In other words, under no circumstances should the content 
identified on this core list appear within any kids.us website. We seek 
comment on the proposed list as outlined below.
    The following information or content is not permitted to be 
activated on any kids.us website:

 <bullet>   Actual normal or perverted sexual acts or sexual contact

 <bullet>   Lewd exhibitions of genitals or post-pubescent female 
        breasts

 <bullet>   Use of the seven words identified in Federal Communications 
        Commission v. Pacifica Foundation, 438 U.S. 726, 98 S. Ct. 
        3026, 57 L.Ed.2d 1073 (1978) in the domain name or content of 
        any kids.us website

 <bullet>   Content that features revealing attire

 <bullet>   Content that displays, sells, or advocates the use of 
        weapons

 <bullet>   Game sites designed for teens and older

 <bullet>   Content that advocates the legal or illegal use of drugs

 <bullet>   Content that advocates legal or illegal gambling

 <bullet>   Content that advocates or contemplates alcohol consumption

 <bullet>   Content that demonstrates explicit violence against people 
        or animals, including hate crimes

 <bullet>   Content that features smoking or use of other tobacco 
        products

    Notwithstanding the list contained above, we envision that content 
would be reviewed by the Content Manager(s) on the whole. If such 
content is deemed by the Content Manager(s) as having serious 
educational, informational, intellectual, literary, artistic, 
political, or scientific value for minors we believe that exceptions 
can be made to allow this content to appear in the kids.us domain.

    Senator Dorgan. Mr. Casey, thank you very much. Let me ask 
a series of questions, then I'll call on Senator Ensign for 
questions.
    You indicate that NeuStar has always intended to create a 
Dot Kids space on your own. Let me ask, what, if you would 
force rank your principal objections, would you tell us the 
force ranking?
    Mr. Casey. Yes. As a first issue, we just want to make 
clear that the original reservation of the kids.us domain was 
set, not necessarily that we had planned initially to 
immediately roll out a kids.us. And, in particular, we want to 
make sure somebody didn't do it inappropriately. We needed to 
reserve the name. At the time that we put the name on the 
reservation list, we didn't know how to do it, and we have been 
studying that going forward.
    The legislation, in several instances, or in several 
respects, has a number of issues that concern us. One is, it is 
a fairly dangerous precedent on the regulation of a domain 
space. The domain space is very--a very difficult space to 
regulate, and it's very difficult to know if the regulation 
will get it right.
    It also is not clear that what is being set up under this 
legislation will actually solve the problem. It is critical, in 
our view, that a process be gone through in a time frame and in 
a manner that can ensure that what we do set up will work. And 
it is not clear that--under this legislation, that we will have 
that opportunity.
    The other issue--another issue that is very important is 
the simple fact that we don't yet know how to set up a space 
like this so that it will be used. And, in doing that, not just 
used by parents--parents have an interest in using this--but 
used by the content providers that are going to be required to 
make this space a useful space.
    If we force a change in their business operations, if we 
force them to recreate or redo how they do business on a day to 
day basis, we threaten the ability of a registry to put 
together a service that can actually be sold or be operated 
through the various channels that are necessary to put in 
place--the content manager, for example, the registrars who 
sell the domains, for example. So it's not clear that we have 
the ability to do enough development to protect that.
    Senator Dorgan. Well, let me go to the first point, the 
issue of it being regulated. If your organization or this 
legislation create a Dot Kids, a kids.us domain, someone should 
regulate the content. If the content isn't regulated, it's a 
worthless enterprise, would you not agree?
    Mr. Casey. I would agree with that.
    Senator Dorgan. The question isn't whether there's 
regulation. The question is will the regulation be effective.
    Mr. Casey. The question is whether the regulation is set up 
in a structure that works within the kind of industry that 
you're trying to place the regulation on. We--NeuStar, for 
example, has worked in several industries, within the 
telecommunications industry where we have worked with all the 
stakeholders to come up with solutions that would have been 
difficult, if not impossible, to come up with under a standard 
regulatory structure. Rather, we brought the stakeholders 
together, we figured out what had to be done, and we put in 
place some very complex systems, in many cases, to solve the 
problems.
    So what we are proposing today is that it is not clear that 
regulation at this point can be made in a manner that will let 
that kind of development take place.
    Senator Dorgan. Ann Brown, Mr. Casey says one of the other 
concerns is that they're not sure it will be used. Could you 
give us your impression of that?
    Ms. Brown. Well, I certainly think it is something that 
would be used. When we did our own focus groups, I think even 
the kids were aware that they are treading in dangerous 
territory. I think that parents would welcome this.
    I think that, as I said, getting the information out that 
this exists and how to use it would be absolutely crucial, and 
I think the stakeholders would certainly want it used if they 
knew that kids and parents were going to be using it. And so it 
would seem to me this would be an extremely useful site and 
that if it is well publicized and if it has good, interesting, 
interactive content, that it would be a very, very useful site.
    Senator Dorgan. Mr. Casey, the liability in this piece of 
legislation, I expect, is very important to you. If you had 
intended, in any event, to create some kind of a domain for 
kids, a kids.us of some type, I assume the liability protection 
is very important to you. Is that correct?
    Mr. Casey. The liability protection is an important piece 
of this puzzle. It is not clear. We have been working on 
several alternatives or several possibilities for how to gain 
the kind of liability protection in the legislation.
    Senator Dorgan. Assuming Congress does nothing, the House 
bill dies, nobody ever discusses this subject again and you're 
not ever bothered by pressure from any direction, tell me the 
time frame in which your company, having discussed it 
voluntarily, would create an exclusive domain for kids with 
appropriate content.
    Mr. Casey. Yes. What we're currently exploring is, as I 
said, the structure and the model for providing this kind of a 
service. The initial time frame for the content review will be, 
the comments are due by October 11th, and we will begin a 
process of putting out the final content guidelines for the 
space. And we have been doing a significant amount of outreach 
to get as much of those guidelines as possible.
    The next step involves figuring out the proper structure, 
both as a matter of how the system will work and a matter of 
what kind of arrangements have to be made with various service 
providers. For example, content managers, an important next 
step, somebody that can review the sites, review proposed 
pages, and determine that it does, in fact, meet the guidelines 
and is appropriate for children, that's an appropriate first 
step. We're working to find somebody who would like to step up 
to that. Once that person is in place, we believe that we could 
roll out with service in about a 12-month time frame.
    Senator Dorgan. And if the Senate, as I hope, would pass 
legislation in this area, in the next 5 or 6 weeks, is your 
anticipation the sky will fall in on your company?
    Mr. Casey. I don't know whether the sky will fall in or 
not--I'm not sure I would go that far--but the legislation puts 
in place various requirements that may be rather difficult to 
meet, given the analysis that has to be done and the 
relationships that have to be built with the providers.
    Senator Dorgan. I don't express any surprise at all for you 
saying we want total flexibility. We prefer less, rather than 
more, guidance. In fact, we'd prefer no instruction from 
anybody and would like to go better business and do what we 
think. And I understand that, and I am not surprised by that at 
all. That is what a company would want to suggest. You 
understand the tension in public policy here.
    Mr. Rodriguez and Ms. Brown talk about exploited children. 
The discussion virtually across this country by parents is they 
want to find some safe haven in cyberspace to give them some 
comfort as parents and allow them to better supervise their 
children who are using the computer. So that's the tension. And 
my feeling is, we solve that tension to the extent we have the 
votes and, to the extent we can, we will resolve that tension 
in a way that advances the interest of this legislation, 
recognizing that your company is going to have to be the one 
that implements this. But, nonetheless, implements a piece of 
public policy in the context of what our government is doing 
with your company, a public policy that we think advances the 
interest of children and the interest of creating a safe haven 
on the Internet.
    Mr. Casey. We absolutely support that goal, Mr. Chairman.
    Senator Dorgan. Let me ask Senator Ensign if he would like 
to ask any questions. And Ms. Brown, you may respond after 
Senator Ensign is done.
    Senator Ensign. Thank you, Mr. Chairman.
    First of all, let me say, if I was in your position, Mr. 
Casey, I might be arguing some of the same points. The tension 
comes in and is from frustration, really, I think, when you 
hear story after story after story. We mentioned seeing people, 
and hear about kids going places where they view pornography or 
violent things or whatever. But obviously the biggest problem 
is that--with pedophiles and kidnapping and things like that, 
that is the most immediate danger.
    So this isn't something that--people feel we have waited 
long enough for this. The Internet has been around long enough. 
And we're saying that, similar to what the deadline that the 
Congress put for the airports to have 100 percent of the bags 
screened, they said, ``You will do it by December 31st, 2002.'' 
Now some of the airports are not going to be able to exactly 
meet that deadline, but 95 percent of the airports are going to 
meet that deadline, and the rest of them are going to have 
other types of measures put in place to have at least a 100 
percent of the bags screened. They won't have the exact 
machines, but they will at least have 100 percent of the bags 
screened. And everybody said that that could not be done.
    The reason, sometimes, for policymakers to pass something 
that things people say cannot be done, time-wise, is because it 
forces them to get done. That happens, by the way, within 
private companies. I mean, you're a CEO, and you tell your 
people, ``I want to see this thing done,'' and they say it 
can't be done, and then all of a sudden it gets done because 
the CEO said that it will be done.
    We're basically like the CEO in this case, and we're saying 
that, ``No, this will get done.'' And we do recognize that 
there will be problems along the way. And there are some 
questions that have to be answered out there. I guess it's our 
gut versus your gut right now, and our gut is telling us that 
it can be done and that there will be a market out there. And 
some of our experiences of the past show this to be true. As I 
indicated, Hollywood said that if they make those family 
movies, people won't buy them. They are making mostly R-rated 
movies, because that is what they say people want to watch. And 
yet, consistently, every time a family movie comes out, it goes 
to the top of the charts. It is amazing how consistent it is. 
And yet there is resistance to it.
    And we're not saying that we want to determine what 
everybody makes, but what we are saying is that based upon what 
families and our own families tell us, and we get a lot of mail 
from people, that they want someplace where they can direct 
their kids. And if there is that much public demand out there, 
we feel that the places like Nickelodeon and the rest of them, 
they're going to create the problems to be able to market to 
kids on these in this subdomain, and it will cause it to 
develop in and of itself. And it won't be perfect at the 
beginning, but there will be more and more attractiveness. And 
some families will send their kids there and more development 
will happen which will cause more families to go there.
    And I just think that over time we may have to come back 
and fix the legislation somewhat. But if we don't put on the 
pressure, I just don't know that it's going to ever happen. It 
will be one of those things that we come back next year, and 
we'll go, ``You know what? It's still not happening.'' And I 
just think that we need to put on that pressure, otherwise it 
is just not going to happen.
    And maybe you could address something Mr. Casey. The .us 
has been compared to the spectrum, in that the broadcasters are 
required to do a certain amount of public good before having 
the free spectrum. And what public good, I guess, are you 
required to do? Because basically you got this spectrum for 
free. And I realize you make a profit. There's nothing wrong 
with making a profit, but don't you feel that there's some 
responsibility for the company that has a public domain 
basically out there, that there comes with that a 
responsibility to take some of your profits and put it toward 
the public good?
    Mr. Casey. That is a very good question, Senator. And the 
first point there is, we very much accept, and we operate under 
the concept of public service and public good. All of our 
businesses are centered on that kind of an operation--if our 
systems go down, telephones stop working. So this is part of 
who we are. This is our heritage. And, for example, in the .us 
proposal that became our contract, we proposed creation of a 
policy council, and we now have that policy council in place. 
The idea of that policy council was to give us input from the 
public and from various users of the space to let us know what 
needs to happen to meet the needs of the Internet, and the 
needs of the public. So we fully accept that responsibility.
    Now, one misconception that I want to speak to, we were not 
given .us. We earned it. We put the best proposal forward. The 
Department of Commerce came out with an SOW and said, ``This is 
what we need built. The .us space is currently broken. It is 
underutilized. We built the Internet. We should have the best 
.us around. Build it for us.'' We stepped up. We put in a 
proposal that clearly was the best proposal. We were selected, 
and we have created a very successful--the beginnings of a very 
successful .us space.
    Senator Dorgan. At this point on .us, How many registers do 
you have?
    Mr. Casey. Just over 300,000 registrants since going live 
April 24th. Not the biggest domain in the world right now, but 
a lot bigger than it was when we took it over, and a lot more 
modern than how the .us space has been run in the past. So we 
responded to what the Government has asked us to do, and we 
will respond to this.
    We have committed to a Dot Kids.us space. So there is no 
need to pressure us. We're doing it. We've already started the 
process. Our biggest goal is to make sure that as we do it, we 
do it correctly, because God forbid we get it wrong.
    Senator Ensign. I appreciate that. I think you have put 
together a good proposal for .us. But how much money did you 
pay for that?
    Mr. Casey. How much money have we paid for that? Did we 
actually----
    Senator Ensign. To the government.
    Mr. Casey. To the government, no money paid to the 
Government.
    Senator Ensign. I just wanted to check on that, because the 
same comparison can be made of the spectrum. You remember the 
networks and everything, they had to put in huge amount of 
money to develop that, but they did that to develop a product 
to make money. The bottom line is, it is a fair comparison that 
the networks, you know, were basically given the spectrum in 
the same way that you've been given a spectrum. It's a 
different kind of a spectrum, and, therefore, a public 
responsibility.
    So, I don't think it's an unreasonable comparison for 
Congress, then, to ask for a certain type of a public good to 
come out of that, just like we asked of the networks.
    Mr. Casey. Agreed. And part of our contract already states 
that we will serve the public interest. We have already stepped 
up to that.
    Senator Ensign. Thank you.
    Senator Dorgan. Ms. Brown, would you like to comment?
    Ms. Brown. Yes, very briefly. After 8 years in government, 
when I start to hear words like ``exploring and review,'' 
``begin process,'' ``outreach,'' ``figuring out,'' ``first 
step,'' ``next step,'' ``analysis,'' ``develop relationships,'' 
it seems to me that I always knew we were in a 5- or 6-year 
project. And I think it would be--I think it is incumbent upon 
what you Senators have said, that having a little pressure to 
get this done in a timely time frame would be very important.
    I think the time is now. And, from what I can tell, 
parents, and even the kids, would really like it to be done 
sooner rather than later. So I think the passage of this 
legislation would help to a great respect.
    Senator Dorgan. All right. As I conclude the hearing--Jan 
Whitley, would you like to give us two minutes? You're here 
with your children. And I will put this in the record, but why 
don't you come forward and give us the final two minutes as a 
mother. You were gracious enough to come to the hearing today 
and let us hear your observations about what you've heard at 
this hearing.

   STATEMENT OF JAN WHITLEY, MOTHER, SILVER SPRING, MARYLAND

    Ms. Whitley. Thank you very much. Let me first say, this is 
quite an honor and one that I didn't expect when I came in 
through those doors. But, as I've sat here today and listened 
to all of the comments, I have to sort of put myself closest to 
Ann Brown and say that I do think the time is now.
    Just this week, my children--we utilize a Website, which I 
won't name, to check homework assignments and that sort of 
thing. And when you went into the site, we were faced with 
Howard Stern. And while I don't think we would classify his 
rantings and his dissertations as being pornographic, they're 
certainly not appropriate.
    Senator Ensign. I would.
    [Laughter.]
    Ms. Whitley. Thank you, Senator. But it was totally 
inappropriate for the children, and this is a safe site. It's 
supposedly a safe site. And I think this happens more and more. 
And I think the figures don't tell the whole story, all the 
statistics, because I didn't call anyone to report it to other 
than to call the school to alert them so that they could start 
the process. But I think that we don't--I don't want to wait 
until a tragedy, until one of my daughters is missing or has 
been contacted.
    I know that I even shudder sometimes when I come across a 
site, and I'm a grown person, well above the age of 12. And I 
think that it's something that is needed. And I applaud you for 
pursuing this.
    And I have to laugh and say that, as Ms. Brown was saying 
those words, being sort of the government buzz words, that it's 
going to be a slow process kind of thing, I think the time is 
now for action, and no more studies and all of that.
    So that said, I would just like to say thank you again for 
this opportunity to comment on this.
    [The prepared statement of Ms. Whitley follows:]

   Prepared statement of Jan Whitley, Mother, Silver Spring, Maryland

    Dear Members of the Commerce Committee,

    Thank you for the opportunity to comment on the issue of Internet 
safety for children and more particularly on Senate Bill 2537, Dot Kids 
Implementation and Efficiency Act of 2002. I was quite honored when I 
was contacted by a staff member of Senator Dorgan's office to address 
this issue and bill as a parent. As an American citizen, it certainly 
gives true meaning to the phrase `` . . .government of the people . . 
.''
    My name is Jan Whitley. I am from Silver Spring, Maryland. My 
husband and I have three children, Derek--age 16, Dara--age 10, and 
Dona--age 7. We are members of St. Camillus Parish and my words today 
reflect the sentiments of the parents and parishioners at St. Camillus.
    As a parent, I am always trying to protect my children from the 
dangers that exist in our world. Some of them are easy to identify and 
items like locks and seat belts provide the needed safety. However, 
some of the dangers are less easy to identify and if identifiable, they 
are hard to protect our children from them. One such danger is the 
Internet. Overall, the Internet is a wonderful tool that provides us 
with access to information and hours of enjoyment. But often it is a 
scary place and one that is full of information that is inappropriate 
for children. Sometimes, it is even inappropriate for adults like me.
    Just this week, I attempted to visit a homework site for my younger 
children and encountered messages from Howard Stern. Needless to say I 
was shocked. While the information would not be considered pornographic 
from a legal standpoint, it was not what my 7 and 10 year olds should 
see.
    Senate Bill 2537 would have prevented this from happening. The 
creation of an Internet domain that is dedicated to children under the 
age of 12 will give parents like me greater peace of mind. I will be 
able to let Dara and Dana ``surf the net'' and not worry that they will 
come upon something they shouldn't see. This is very important, 
especially given the fact that most 10-year olds are more computer 
savvy than their parents. That is how it is in my house.
    I have one suggestion for improving the legislation being 
considered: the education of parents and the general public should 
begin immediately upon the bill becoming law. Everyone is so busy and 
this is such an important matter that there is no such thing as 
overkill in this instance.
    I sincerely hope that Senate Bill 2537 is passed and that ``dot 
kids'' becomes a reality. Thank you for listening to me.

    Senator Dorgan. Ms. Whitley, thank you very much. I just 
have to tell you, my son, like a lot of sons, was playing a 
computer game at one point that was--it was a decent game; it 
was not inappropriate--and it was one of those games where it 
was difficult. And there's this site on the Internet where they 
will give you hints on how to play it more effectively. But 
this was a game that had a name that, if you would go to the 
Internet and type in that name, he discovered material that I 
won't describe at this hearing. He was quite innocent. He was 
trying to go to this game site, but he typed ``www'' and the 
name of this game, and he got a site that really was quite 
extraordinary.
    And it happens all the time, all across the country, and 
the issue is not whether we should try to do something about 
that. Everyone believes we should. You, on behalf of parents, 
speak here today saying we should. I think Mr. Casey and 
NeuStar believes we should, and Mr. Rodriguez, Ms. Brown. So 
the question isn't whether; it's how. And I hope that this 
hearing will advance the interest in the United States Senate 
to move forward on some legislation.
    Mr. Casey, we will be working with your corporation. We 
will be working with the Members of the House. Mr. Rodriguez, 
thanks for what your organization does. And Ms. Brown, again, 
thank you for your service as chairman of the Consumer Products 
Safety Commission. Mr. Casey, thank you for coming. And, Ms. 
Whitley, thanks for bringing your children.
    This hearing is adjourned.
    [Whereupon, at 3:40 p.m., the hearing was adjourned.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
